1

XI. APPENDIX

Black v Vitello, et. a!.,

Page / 50

*> /

CM

Case 20-1520, Document 100-1,03/29/2021,3065107, Pagel of 4

20-1520
Black v. Vitello

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER"). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 29th day of March, two thousand twenty-one.
Present:

DENNIS JACOBS,
ROSEMARY S. POOLER,
MICHAEL H. PARK,
Circuit Judges.
f

SYLVIA BLACK,
Plaintiff-Counter Defendant-Appellant,
20-1520-cv

v.

i

PEACE OFFICER CHRISTINE VITELLO,
PEACE OFFICER RICK ROSENBERRY, PEACE
OFFICER BILL HEINE, OF THE SPCA WNY,
SPCA OF WESTERN NEW YORK,
Defendants-Counter Claimants-Appellees.

Appearing for Appellant:

Sylvia Black, pro se, Cheektowaga, NY.

Appearing for Appellees:

Alan Donatelli, Amherst, NY.

Appeal from a judgment of the United States District Court for the Western District of New
York (Sinatra, J.; Foschio, M.J.).
^__

™ 2 2 2121

.

,'Ci*

Case 20-1520, Document 100-1, 03/29/2021, 3065107, Page2 of 4

ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of said District Court be and it hereby is AFFIRMED.
Appellant Sylvia Black, pro se, sued the Society for the Prevention of Cruelty to Animals
of Western New York (“SPCA”) and three of its officers under 42 U.S.C. § 1983. Prior to filing
the complaint with the district court, Black mailed copies of the complaint to the defendants. She
did not later personally serve them with copies of a summons issued by the district court clerk and
the filed complaint. The defendants moved to dismiss the complaint and a magistrate judge
recommended granting the motion on the ground that the court lacked personal jurisdiction over
the defendants due to improper service. The district court adopted the recommendation and
dismissed the complaint. On appeal, Black moves to compel the defendants to provide a copy of
their appellate brief. We assume the parties’ familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.
••• V
We review de novo district court orders dismissing a complaint for lack of personal
jurisdiction. Chufen Chen v. Dunkin’ Brands, Inc., 954 F.3d 492, 497 (2d Cir. 2020). We review
dismissals based on insufficient service of process for abuse of discretion. Dickerson v.
Napolitano, 604 F.3d 732, 740 (2d Cir. 2010). “Before a federal court may exercise personal
jurisdiction over a defendant, the procedural requirement of service of summons must be satisfied.”
Dynegy Midstream Servs. v. Trammochem, 451 F.3d 89, 94 (2d Cir. 2006) (quoting Omni Cap.
Int’l, Ltd. v. Rudolf Wolff & Co., 484 U.S. 97, 104 (1987)). Therefore, to survive a motion to
dismiss premised on lack of personal jurisdiction and insufficient service of process, the plaintiff
must demonstrate that she adequately served the defendants. See Penguin Grp. (USA) Inc. v. Am.
Buddha, 609 F.3d 30, 34-35 (2d Cir. 2010) (“In order to survive a motion to dismiss for lack of
personal jurisdiction, a plaintiff must make a prima facie showing that jurisdiction exists.” (internal
quotation marks omitted)); Dickerson, 604 F.3d at 752 (“When a defendant moves to dismiss under
Rule 12(b)(5), the plaintiff bears the burden of proving adequate service.” (alteration and internal
quotation marks omitted)).
The requirements for service of process are set out in Federal Rule of Civil Procedure 4.
Rule 4 requires that a summons, which is valid only when it is signed by the district court clerk
and bears the court’s seal, be served with a copy of the complaint. Fed. R. Civ. P. 4(a)(l)(F)-(G),
(c)(1). Service on an individual defendant must be accomplished by (1) following state law in the
state where the district court is located, (2) personally delivering a copy of the summons and
complaint to the defendant, (3) leaving a copy of the summons and complaint at the defendant’s
residence with another resident, or (4) delivering a copy to an agent authorized by appointment or
law to receive service of process. Fed. R. Civ. P. 4(e). Service on a corporation or association can
be accomplished by the same methods or by delivering a copy of the summons and complaint to
an officer, manager, or other authorized agent. Fed. R. Civ. P. 4(h)(1).
Black did not properly serve the defendants. She did not offer any evidence showing that
she had served copies of the complaint with a summons signed by the district court clerk or bearing
the court’s seal. Further, Black did not show that she personally served the individual defendants
2

.* >

Case 20-1520, Document 100-1,03/29/2021,3065107, Page3 of 4

or an officer or agent of the SPCA, a non-profit corporation. Although Black provides evidence
that she mailed the items to the defendants, mail is not an acceptable method of service under
Federal Rule of Civil Procedure 4. Nor does New York law permit service by mail alone; service
on a natural person generally requires personal delivery of the summons and complaint to either
the individual or a designated agent. See N.Y. C.P.L.R. § 308(1), (3). Alternatively, the summons
can be delivered to the defendant’s residence or place of business and left with “a person of suitable
age” if a copy is also mailed to the defendant’s residence or place of business. Id. § 308(2). Finally,
if service cannot be made by these means, it can be effected by affixing a copy of the summons to
the defendant’s residence or place of business and by mailing it to the same. Id. § 308(4). A judge
may order an alternative if none of the above methods is practicable. Id. § 308(5). Service on a
corporation is accomplished by personal delivery of the summons to an officer or agent of the
corporation or the New York Secretary of State. N.Y. C.P.L.R. § 311(a). New York allows other
avenues of service only when the original methods are impracticable, and the alternative is ordered
by the court. Id. § 311(b). Black did not serve the defendants pursuant to these methods or obtain
permission from the district court to serve the summons and complaint by mail. Therefore, the
district court properly dismissed the complaint.
“We review for an abuse of discretion a district court’s Rule 4(m) dismissal for failure to
serve process.” Zapata v. City ofNew York, 502 F;3d 192, 195 (2d Cir. 2007). Absent a showing
of good cause, “we generally will not reverse a district court’s dismissal of an action for lack of
service unless the [plaintiff] can ‘advance some colorable excuse for neglect.’” Meilleur v. Strong,
682 F.3d 56, 61 (2d Cir. 2012). Here, Black has not provided any explanation for her failure to
timely serve Defendants. Moreover, although Rule 4(m) directs district courts to order dismissal
“without prejudice” when based on a failure to timely serve process, Fed. R. Civ. P. 4(m), a district
court may dismiss a case with prejudice where “[t]he problem with [the plaintiffs] causes of action
is substantive” and “better pleading will not cure it,” Cuoco v. Moritsugu, 222 F.3d 99, 112 (2d
Cir. 2000). Upon review of Black’s complaint, we hold that it is “beyond doubt that [Black] can
prove no set of facts in support of [her] claim which would entitle [her] to relief.” Lerman v. Bd.
ofElections, 232 F.3d 135, 140 (2d Cir. 2000) (internal quotation marks omitted). Amendment to
the complaint would thus be futile, and so we find that the district court did not abuse its discretion
in dismissing the case with prejudice.
We also deny Black’s motion to compel the defendants to provide her with a copy of their
brief because they have provided copies of their brief to her. They filed two affidavits of service
showing that they twice mailed a copy of the brief to Black’s address of record. Further, the
defendants provided a receipt from Federal Express showing that the second copy had been
delivered and a copy of an email from their attorney to Black that attached a courtesy copy of the
brief. Black has not stated that the address used to mail the briefs was incorrect or that she never
received the emailed copy. The motion is therefore meritless.

3

r

Case 20-1520, Document 100-1, 03/29/2021, 3065107, Page4 of 4

We have considered the remainder of Black’s arguments and find them to be without merit.
Accordingly, we AFFIRM the judgment of the district court and DENY Black’s motion to compel.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
!

:

I
I
I

i
i

4
/■

Case l:17-cv-00393-JLS-LGF Document30 Filed 04/06/20 Page lot3

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

Sylvia Black,
Plaintiff,
17-cv-393-JLS-LGF

v.
Peace Office Christine Vitello, et al.,
Defendants.

DECISION AND ORDER
On May 9, 2017, pro se Plaintiff Sylvia Black commenced this action under 42
U.S.C. § 1983. Dkt. 1. On April 13, 2018, this Court referred this case to United
States Magistrate Judge Leslie G. Foschio for all proceedings under 28 U.S.C. §
636(b)(1)(A) and (B). Dkt. 11. On August 14, 2017, Plaintiff moved for a pretrial
hearing or scheduling conference. Dkt. 8. On August 25, 2017, Defendants
responded and cross-moved to dismiss the complaint for lack of personal jurisdiction
based upon improper service. Dkt. 9. Plaintiff responded on May 2, 2018. Dkt. 13.
Defendants replied on May 31, 2018. Dkt. 14. Plaintiff filed a second response to
Defendants’ crossmotion on June 12, 2018. Dkt. 15.
On March 18, 2019, Judge Foschio issued a Report and Recommendation
(“R&R”) finding that Defendants’ motion should be granted and that Plaintiffs
motion should be dismissed as moot. Dkt. 18. Plaintiff filed objections to the R&R
on March 26, 2019 (Dkt. 20), and again on March 28, 2019 (Dkt. 21), both times
realleging her substantive complaints, stating that she “served Defendants] within
1

Case l:17-cv-00393-JLS-LGF Document 30 Filed 04/06/20 Page 2 of 3

the legal ramifications of the Law” (Dkts. 20 and 21, at 3), and asserting that
Defendants “did not ask for a dismissal on the basis of alleged improper service”
(Dkts. 20 and 21, at 3). Defendants responded to the objections on April 2, 2019.
documenting their requests for dismissal based on lack of personal jurisdiction
arising from Plaintiffs improper service. Dkt. 19. Plaintiff filed a motion for
judgment on April 4, 2019 (Dkt. 22), to which Defendants responded on April 16
2019 (Dkt. 23).
A district court may accept, reject, or modify the findings or recommendations
of a magistrate judge. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b)(3). A district
court must conduct a de novo review of those portions of a magistrate judge’s
recommendation to which objection is made. 28 U.S.C. § 636(b)(1);
Fed. R. Civ. P. 72(b)(3).
This Court has carefully reviewed the R&R, the record in this case, the
objection and response, and the materials submitted by the parties. Based on that
de novo review, the Court accepts and adopts Judge Foschio’s recommendation to
grant Defendants’ crossmotion to dismiss and to dismiss Plaintiffs motion for a
hearing as moot. Plaintiffs motion for judgment (Dkt. 22), which was filed after the
R&R was issued and after Plaintiff had twice objected to the R&R, is also dismissed
as moot.
For the reasons stated above and in the Report and Recommendation,
Defendants’ crossmotion to dismiss (Dkt. 9) is GRANTED and Plaintiffs motion for
a hearing (Dkt. 8) is DISMISSED as moot. Plaintiffs motion for judgment (Dkt. 22)

2

Case l:17-cv-00393-JLS-LGF Document 30 Filed 04/06/20 Page 3 of 3

is also DISMISSED as moot. The complaint (Dkt. 1) is dismissed; the Clerk of
Court is instructed to close this case as dismissed with prejudice.
SO ORDERED.
Dated:

April 6, 2020
Buffalo, New York

s/John L. Sinatra, Jr.
JOHN L. SINATRA, JR.
UNITED STATES DISTRICT JUDGE

3

Case l:17-cv-00393-JLS-LGF Document 31 Filed 04/07/20 Page 1 of 1
AO 450 (Rev. 11/11) Judgment in a Civil Action

United States District Court
for the
Western
Sylvia Black,
Plaintiff
v.

Peace Office Christine Vitello, et al.,
Defendant

District of
)
)
)
)
)

NY

Civil Action No.

17-cv-393-JLS-LGF

JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
_________ recover from the
___________ the amount of
_ ), which includes prejudgment
% per annum, along with costs.

□ the plaintiff (name)
defendant (name) __
interest at the rate of

___________________________ dollars ($
%, plus post judgment interest at the rate of

□ the plaintiff recover nothing, the action be dismissed on the merits, and the defendant (name)
___________________________ recover costs from the plaintiff (name) ___________________

[Xl other: Defendants’ crossmotion to dismiss is GRANTED and Plaintiffs motion for a hearing is DISMISSED as moot.
Plaintiffs motion for judgment is also DISMISSED as moot. The complaint is dismissed and the Clerk of Court is instructed to
close this case as dismissed with prejudice.
This action was (check one):
[~1 tried by a jury with Judge
rendered a verdict.

presiding, and the jury has

witho1

Q tried by Judge
was reached.

&

IEI decided by Judge
John L. Sinatra, Jr.____________________________ Agy
in favor of the Defendants'. The complaint is dismissed and the Clerk of Court is instrffted to
prejudice.
Date:

04/07/2020

above decision
T* /.

o.
ttiissal

rdisirifiAd with
/
*

M£

CLERK a

w

&

&

Signature of Clerk or Deputy Cierk

Case l:17-cv-00393-JLS-LGF Document 18 Filed 03/18/19 Page 1 of 10

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

SYLVIA BLACK,
Plaintiff,
v.
PEACE OFFICER CHRISTINE VITELLO,
PEACE OFFICER RICK ROSENBERRY,
PEACE OFFICER BILL HEINE, of the SPCA WNY, and
SPCA OF WESTERN NEW YORK,

REPORT
and
RECOMMENDATION
17-CV-00393V(F)

Defendants.

APPEARANCES:

SYLVIA BLACK, Pro Se
3842 Harlem Road
400-237
Buffalo, New York 14215
ALAN DONATELLI, Esq.
Attorney for Defendants
11 Summer Street
3rd Floor
Buffalo, New York 14209

JURISDICTION
This case was referred to the undersigned by Hon. Lawrence J. Vilardo on April
13, 2018, for all pretrial matters including preparation of a report and recommendation
on dispositive motions. The matter is presently before the court on Plaintiffs motion for
a hearing filed August 14, 2017 (Dkt. 8), and on Defendants’ motion to dismiss filed
August 25, 2017 (Dkt. 9).

Case l:17-cv-00393-JLS-LGF Document 18 Filed 03/18/19 Page 2 of 10

BACKGROUND and FACTS1
Plaintiff Sylvia Black (“Plaintiff’ or “Black”), proceeding pro se, commenced this
action on May 9, 2017, by filing the Complaint alleging she was subjected to various
civil rights violations by Defendants Society for the Prevention of Cruelty to Animals
serving Erie County2 (“SPCA"), and SPCA Peace Officers Christine Vitello (“Vitello”)
Rick Rosenberry (“Rosenberry”), and William Heine (“Heine”) (together, “Defendants”).
Plaintiffs claims are based on the February 8, 2017, seizure and removal, pursuant to a
search warrant Defendant Vitello obtained from Buffalo City Court that same day, of 14
cats from her residence located at 62 Shepard Street, Buffalo, New York (“the
residence”). Subsequent to the seizure, Plaintiff was arrested and given an appearance
ticket charging her with four (4) misdemeanor counts of animal abuse in violation of N.Y.
Agriculture and Markets Law § 353 (McKinney’s 2005).3 Following their removal,
several of the cats were euthanized, while the others were provided with veterinary care
and boarding by the SPCA.
On May 4, 2017, Plaintiff sent to Defendants SPCA, Vitello, and Rosenberry, via
first class mail through the United States Postal Service, copies of the document that
Plaintiff, on May 9, 2017, filed as the Complaint. On May 24, 2017, Defendants filed an
answer (Dkt. 2), asserting that the animals were found in deplorable conditions, seized,
and brought to SPCA facilities where the animals were treated and sheltered. Answer
14-16. Defendants also assert nine affirmative defenses including, as relevant here,
a lack of personal jurisdiction over Defendants based on insufficient service of process

1 The Facts are taken from the pleadings and motion papers filed in this action.
2 In the Complaint, Plaintiff incorrectly refers to this Defendant as the “SPCA of Western New York.”
3 On March 13, 2017, Plaintiff was arraigned on the misdemeanor counts and, on December 5, 2017,
Plaintiff pleaded guilty to one count of animal abuse in full satisfaction of the matter.
2

Case l:17-cv-00393-JLS-LGF Document 18 Filed 03/18/19 Page 3 of 10

id. HU 5, 6, and a counterclaim to recoup the costs for medical care and boarding the
animals in an amount not less than $ 10,000. Id. HU 17-18. On June 19, 2017, Plaintiff
filed an answer to Defendants’ counterclaim. (Dkt. 4). Plaintiff filed copies of discovery
demands she maintains were served on Defendants, and to which Defendants had yet
to provide answers on June 19, 2017 (Dkt. 5), and August 14, 2017 (Dkt. 7).
On August 14, 2017, Plaintiff filed a motion fora pretrial hearing or scheduling
conference (Dkt. 8) (“Plaintiffs motion”), supported by the attached Affidavit of Sylvia
Black in Support of Motion (Dkt. 8 at 5-10) (“Plaintiffs Affidavit”). On August 25, 2017
Defendants filed a cross-motion to dismiss the Complaint for insufficient service of
process (Dkt. 9) (“Defendants’ motion”), attaching the Attorney Affirmation of Alan
Donatelli, Esq., in Opposition to Motion and in Support of Cross-Motion (Dkt. 9-1)
(“Donatelli Affirmation”), exhibits (Dkts. 9-2 and 9-3), and the Memorandum of Law in
Opposition to Plaintiffs Notice of Motion and in Support of the SPCA Defendants’
Cross-Motion for Dismissal of the Complaint (Dkt. 9-4) (“Defendants’ Memorandum”).4
On May 2, 2018, Plaintiff filed Plaintiffs Opposition to Defendants’ Motion to Dismiss
(Dkt. 13) (“Plaintiffs Response”). On May 13, 2018, Defendants filed the Attorney Alan
Donatelli, Esq. Reply Affirmation in Support of Cross-Motion (Dkt. 14) (“Donatelli Reply
Affirmation”), with exhibits (Dkt. 14-1). On June 12, 2018, Plaintiff filed Plaintiffs 2nd
Opposition to Defendants’ 2nd Motion to Dismiss (Dkt. 15) (“Plaintiffs Reply”). Oral
argument was deemed unnecessary.
Based on the following, Defendants’ motion should be GRANTED; Plaintiffs
motion should be DISMISSED as moot.

4 For unexplained reasons, the Donatelli Affirmation, exhibits, and Defendants’ Memorandum were also
filed as Dkt. 10,10-1,10-2, and 10-3.
3

Case l:17-cv-00393-JLS-LGF Document 18 Filed 03/18/19 Page 4 of 10

DISCUSSION
Defendants seek dismissal of the Complaint on the basis that Plaintiff failed to
effect sufficient service of process such that there is no personal jurisdiction over
Defendants in this action. Defendants’ Memorandum at 1-3. Plaintiffs motion fora
pretrial conference is predicated on Defendants’ failure to provide responses to
discovery demands, which responses Plaintiff maintains will establish the criminal case
against her was procedurally infirm based on several irregularities including, inter alia, a
forged search warrant such that Defendants’ entry into her residence to seize the cats
constituted a criminal breaking and entering constituting an unreasonable search and
seizure in violation of the Fourth Amendment, incorrect dates on various documents,
and a court order requiring Plaintiff undergo drug and alcohol treatment despite no
evidence that Plaintiff abuses drugs of alcohol. Plaintiffs Memorandum at 2-5.

1.

Motion to Dismiss
Insofar as Defendants argue Plaintiff failed to effect proper service, such motion

is pursuant to Fed.R.Civ.P. 12(b)(2) (lack of personal jurisdiction), and (5) (insufficient
service of process). Significantly, “‘[bjefore a federal court may exercise personal
jurisdiction over a defendant, the procedural requirement of service of summons must
be satisfied.’” Dynergy Midstream Servs. v. Trammochem, 451 F.3d 89, 94 (2d Cir.
2006) (quoting Omni Capital Inti, Ltd v. Rudolf Wolff & Co., 484 U.S. 97,104 (1987)).
“[T]he service of summons is the procedure by which a court having venue and
jurisdiction of the subject matter of the suit asserts jurisdiction over the person of the
party served.” Mississippi Publishing Corp. v. Murphree, 326 U.S. 438, 444-45 (1946).
As relevant, Fed. R. Civ. P. 4 (“Rule 4”) provides that after filing a complaint, each

4

Case l:17-cv-00393-JLS-LGF Document 18 Filed 03/18/19 Page 5 of 10

defendant must be served with a summons and a copy of the complaint for service of
process upon an individual within 90 days. Fed. R. Civ. P. 4(c)(1) and (m). Service
may be made by “[a]ny person who is at least 18 years old and not a party
Fed.R.Civ.P. 4(c)(2). “[T]he plaintiff bears the burden of proving adequate service.”
Dickerson v. Napolitano, 604 F.3d 732, 752 (2d Cir. 2010). “A defendant’s objection to
service ‘must be specific and must point out in what manner the plaintiff has failed to
satisfy the requirements of the service provision utilized.’” Stepney v. Rochester
Housing Authority, 2018 WL 3110225, at * 3 (W.D.N.Y. June 25, 2018) (quoting
Koulkina v. City of New York, 559 F.Supp.2d 300, 312 (S.D.N.Y. 2008)).
In the instant action, Plaintiff, prior to filing the Complaint and obtaining a docket
number and summons, attempted to serve each of the Defendants by mailing copies of
the unfiled Complaint by way of the United States Postal Service. See Defendants’
Exhibit, Dkt. 10-1 (copies of Affidavits of Service by Mail for “Civil Court of the City of
New York [sic], County of Erie,” indicating that on May 4, 2017, one “Reginald Gray”
mailed “the attached papers” to “Gary Willoughby II,” President and C.E.O. of the SPCA
W.N.Y. (Dkt. 10-1 at 1), “Peace Officer Rick Rosenberry” (Dkt. 10-1 at 2), “Peace Officer
Christine Vitello” (Dkt. 10-1 at 3), and “Peace Officer Bill Heine”) (Dkt. 10-1 at 4).5
Defendants argue in support of dismissal that not only did Plaintiff fail to file the
Complaint such that no case number was obtained prior to Plaintiffs attempted service
of the Complaint, but that the copies of the Complaint mailed to Defendants were not
accompanied by the required summons issued by the Clerk of Court when the

5 Although Defendants maintain that Heine never even received the asserted deficient service of the
Complaint, Defendants’ Memorandum at 1, the court presumes, for the sake of this discussion, that Heine
did receive it.
5

Case l:17-cv-00393-JLS-LGF Document 18 Filed 03/18/19 Page 6 of 10

Complaint is presented for filing, and service by United States mail is not sufficient
under either federal or New York law. Defendants’ Memorandum at 1-2. Defendants
further argue the attempted service of process is fatally flawed such that the court is
without personal jurisdiction over Defendants, rendering Plaintiffs motion seeking a
pretrial conference moot. Id. at 2. In opposing Defendants’ motion, Plaintiff does not
argue that her attempted service of the Complaint occurred in any manner other than as
described by Defendants, but instead reiterates the asserted myriad of illegalities she
maintains accompanied Defendants’ seizure of cats from her home. Plaintiffs
Response at 1-6; Plaintiffs Reply at 1-8.
In this case, Defendants include individuals Heine, Rosenberry, and Vitello, as
well as a non-profit corporation, the SPCA. As relevant, Fed.R.Civ.P. 4 (“Rule 4)
provides that the contents of a summons must, inter alia, “be signed by the clerk” and
“bear the court’s seal.” Fed.R.Civ.P. 4(a)(1)(F) and (G). Here, Plaintiffs attempted
service of the Complaint prior to filing it was not accompanied by the summons and, as
such, was insufficient to confer personal jurisdiction over Defendants. See Barron v.
Miami Executive Towers Assocs. Ltd. P’Ship, 142 F.R.D. 394, 397 (S.D.N.Y. 1992)
(“Although strict conformity with Rule 4’s provisions is not required in every instance
actual receipt of both the summons and the complaint is a base requirement” (citing
Krank v. Express Funding Corp., 133 F.R.D. 14,17 (S.D.N.Y. 1990))). Even if the court
could overlook Plaintiffs failure to serve the copies of the Complaint with summonses
Plaintiffs service of the Complaint did not comply with federal or New York law. In
particular, service may be made upon on individual within the United States by

6

Case l:17-cv-00393-JLS-LGF Document 18 Filed 03/18/19 Page 7 of 10

(1) following state law for serving a summons in an action brought in courts of
general jurisdiction in the state where the district court is located or where
service is made; or
(2) doing any of the following:
(A) delivering a copy of the summons and of the complaint to the individual
personally;
(B) leaving a copy of each at the individual’s dwelling or usual place of
abode with someone of suitable age and discretion who resides there;
or
(C) delivering a copy of each to an agent authorized by appointment or by
law to receive service of process.
Fed.R.Civ.P. 4(e) (italics added).
Service on a corporation, like Defendant SPCA, is to be made
(1) in a judicial district of the United States:
(A) in the manner prescribed by Rule 4(e)(1) for serving an individual; or
(B) by delivering a copy of the summons and of the complaint to an officer, a
managing or general agent, or any other agent authorized by appointment or
by law to receive service of process and - if the agent is one authorized by
statute and the statute so requires - by also mailing a copy of each to the
defendant....
Fed.R.Civ.P. 4(h) (italics added).
A plain reading of Rule 4 establishes that service of process requires service of the
summons and complaint, and that service by United States mail is not an approved
method for service of process under federal law, and more than 90 days have elapsed
since Plaintiff filed the Complaint on May 9, 2017, such that Plaintiff has failed to timely
effect proper service under federal law. Nor has Plaintiff timely effected proper service
under New York law.
Specifically, similar to Rule 4, New York law provides for personal service upon a
natural person, N.Y. Civ.Prac.L.&R. § 308[1], or corporation, N.Y. Civ.Prac.L.&R. § 311,
which was not followed here. Although New York law does permit service by first class

7

Case l:17-cv-00393-JLS-LGF Document 18 Filed 03/18/19 Page 8 of 10

mail “as an alternative to the methods of personal service,” N.Y. Civ.Prac.L.&R. § 312a(a), for service attempted by this method to be complete,
the defendant, defendant’s attorney or an employee of the attorney must
complete the acknowledgement of receipt and mail or deliver one copy of it within
thirty (3) days from the date of receipt. Service is complete on the date the
signed acknowledgement of receipt is mailed or delivered to the sender. The
signed acknowledgement of receipt shall constitute proof of service.
N.Y. Civ.Prac.L.&R. § 312-a(b).
Here, Plaintiff has not produced any signed acknowledgement of receipt of service as
proof of service by first class mail. Further, Plaintiff does not argue that a copy of the
summons accompanied her attempt to serve the Complaint, nor can she given that the
deficient service occurred prior to the filing on the Complaint and, thus, before the Clerk
of Court’s issuance of summons.
Accordingly, Plaintiff has failed to meet her burden of establishing adequate
service, Dickerson, 604 F.3d 752, rendering this court without personal jurisdiction over
Defendants. Dynergy Midstream Servs., 451 F.3dat94. Furthermore, “[a] plaintiffs pro
se status is no excuse for failure to serve the defendant properly and does not
automatically amount to good cause for failure to serve within the time allotted by Rule
4(m).” Jordan v. Forfeiture Support Assocs., 928 F.Supp.2d 588, 598 (E.D.N.Y. 2013)
(internal quotation omitted). Here, Plaintiff neither alleges nor demonstrates good
cause for her failure to effect sufficient service of process and, accordingly, Defendants’
motion to dismiss the Complaint for insufficient service of process should be
GRANTED.
Furthermore, the dismissal of the Complaint renders Plaintiffs motion moot, and
it should be DISMISSED.

8

Case l:17-cv-00393-JLS-LGF Document 18 Filed 03/18/19 Page 9 of 10

CONCLUSION
Based on the foregoing, Defendants’ motion (Dkt. 9), should be GRANTED;
Plaintiffs motion (Dkt. 8), should be DISMISSED as moot. The Clerk of the Court
should be directed to close the file.
Respectfully submitted,
/s/ Leslie G. Foschio
LESLIE G. FOSCHIO
UNITED STATES MAGISTRATE JUDGE
DATED:

March 18, 2019
Buffalo, New York

9

Case l:17-cv-00393-JLS-LGF Document 18 Filed 03/18/19 Page 10 of 10

ORDERED that this Report and Recommendation be filed with the Clerk of the
Court.
ANY OBJECTIONS to this Report and Recommendation must be filed with the
Clerk of the Court within fourteen (14) days of service of this Report and
Recommendation in accordance with the above statute, Rules 72(b), 6(a) and 6(d) of
the Federal Rules of Civil Procedure and Local Rule 72.3.
Failure to file objections within the specified time or to request an
extension of such time waives the right to appeal the District Court's Order.
Thomas v. Arn, 474 U.S. 140 (1985); Small v. Secretary of Health and Human
Services, 892 F.2d 15 (2d Cir. 1989); Wesolek v. Canadair Limited, 838 F.2d 55 (2d
Cir. 1988).
Let the Clerk send a copy of this Report and Recommendation to the attorneys
for the Plaintiff and the Defendants.
SO ORDERED.
/%/ Leslie G. Foschio

LESLIE G. FOSCHIO
UNITED STATES MAGISTRATE JUDGE
DATED:

March 18,2019
Buffalo, New York

10

